   May 14, 2002




Supply Inventory
Management
Evaluation of the Defense Supply
Center Columbus Qualified Products
List and Qualified Manufacturers List
Program
(D-2002-090)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

 To obtain additional copies of this evaluation report, visit the Inspector General of
 the Department of Defense Home Page at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Evaluations

 To suggest ideas for or to request future evaluations, contact the Audit Followup
 and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
ASSIST                Acquisition Streamlining and Standardization Information System
COCT                  Certificate of Conformance and Traceability
DLA                   Defense Logistics Agency
DSC                   Defense Supply Center
FAR                   Federal Acquisition Regulation
NSN                   National Stock Number
PQDR                  Product Quality Deficiency Report
QA                    Qualifying Activity
QAR                   Quality Assurance Representative
QAS                   Quality Assurance Specialist
QML                   Qualified Manufacturers List
QPL                   Qualified Products List
U.S.C.                United States Code
         Office of the Inspector General of the Department of Defense
Report No. D-2002-090                                                     May 14, 2002
  (Project No. D2001PT-0023.001)

            Evaluation of the Defense Supply Center Columbus
                        Qualified Products List and
                  Qualified Manufacturers List Program

                                   Executive Summary
Introduction. This report is a review of the Defense Supply Center Columbus
Qualified Products List and Qualified Manufacturers List Program. The Defense
Supply Center Columbus Qualified Products List/Qualified Manufacturers List Program
was started in 1962 when qualifying activity responsibility for about 75 Qualified
Products Lists was transitioned from the Military Departments. The Defense Supply
Center Columbus currently has management responsibility for over 300 Qualified
Products Lists and 4 Qualified Manufacturers Lists. The Defense Supply Center
Columbus actively procures approximately 186,000 National Stock Numbers from
Qualified Products Lists with sales of over $126 million in FY 2000. The Sourcing and
Qualifications Unit was assigned the responsibility of managing the Qualified Products
List/Qualified Manufacturers List Program. Because the Defense Supply Center
management directed the Sourcing and Qualifications Unit to shift engineers to the
Commodity Management Group and Base Reutilization and Closure, the workforce has
been reduced from approximately 90 staff-years in FY 1989 to 50 staff-years in
FY 2000. In the same time period, the Qualified Products Lists and Qualified
Manufacturers Lists managed increased from 164 to over 300.

Results. Defense Supply Center Columbus did not have an effective manufacturer and
product qualification list program.

     •   Certification and retention policy for its qualified manufacturers was not fully
         enforced. Specifically, 512 (42.8 percent) of the required 1,196
         manufacturing line audits scheduled during 1999-2000 were not accomplished.
         Some of the manufacturing lines have gone 8 years without certification.

     •   The Sourcing and Qualifications Unit did not receive 1,739 Product Quality
         Deficiency Reports required to monitor the Qualified Products List and
         Qualified Manufacturers List Programs.

     •   The Sourcing and Qualifications Unit could not trace sources and authenticity
         of their products because they did not receive 6,479 certificates of
         conformance and traceability.

As a result, manufacturers without the proper certification remained in the Qualified
Products List and Qualified Manufacturers List Program. Further, the Services, which
rely on these programs, are subjected to a higher risk of receiving nonconforming
parts. For details of the evaluation results, see the Finding section of this report.
Summary of Recommendations. We recommend that the Commander, Defense
Supply Center Columbus, fully implement the procedures specified in the DoD and
Defense Logistics Agency regulations to either recertify the manufacturer or remove it
from the Qualified Products List/Qualified Manufacturers List Program; provide
product quality deficiency reports and certificates of conformance and traceability
documentation to the Defense Supply Center Columbus qualified products list
managers; and perform a review of resources required to accomplish the certification
and provide adequate resources in order to accomplish the mission.

Management Comments. The Director, Defense Logistics Agency partially concurred
with the finding and recommendations. The Director did not concur that they did not
have an effective program and stated that the program effectiveness should have been
based on avoiding procurement delays. They partially concurred with either recertifying
or removing manufacturers from the lists and stated that the policy does not have such a
provision. The Defense Logistics Agency partially concurred with providing product
quality deficiency reports and certificates of conformance and traceability to Qualified
Products List and Qualified Manufacturers List managers and proposed implementing
actions, and concurred with performing a review of resources to accomplish the
certifications. A discussion of management comments is in the Finding section of the
report and the complete text is in the Management Comments section.

Evaluation Response. Shorter lead times are included in the Qualified Products List
and Qualified Manufacturers List Program objectives as is improved readiness through
availability of reliable products. Our evaluation focused on the latter, compliance with
Qualified Products List and Qualified Manufacturers List requirements as part of the
Quality Assurance Programs. The Defense Logistics Agency does have the authority to
remove manufacturers from the Qualified Products List and Qualified Manufacturers
List when it is necessary to protect the Government and the users’ interest. In the
response to the final report, we request that the Defense Logistics Agency reconsider
their position and provide comments to the recommendation to remove manufacturers
until their qualification audits are current. The Defense Logistics Agency proposals for
providing product quality deficiency reports and certificates of conformance and
traceability to Qualified Products List and Qualified Manufacturers List managers,
along with reported corrective actions underway, meet the intent of our
recommendations. The Defense Logistic Agency proposed review of resources
required to accomplish the certifications meets the intent of our recommendation.
In response to the final report, we request that the Defense Logistics Agency provide
completion dates for the review of engineering resources required to accomplish the
certifications. We request that the Defense Logistics Agency provide the additional
comments on Recommendations 1. and 4. by July 15, 2002.




                                           ii
Table of Contents

Executive Summary                                                  i

Introduction
     Background                                                    1
     Objective                                                     4


Finding
     Effectiveness of Management of the Qualified Products List
     and Qualified Manufacturers List Program                      5


Appendixes
     A. Evaluation Process
         Scope and Methodology                                    13
         Management Control Program Review                        13
         Prior Coverage                                           14
     B. Definitions of Technical Terms                            15
     C. Report Distribution                                       16


Management Comments
          Defense Logistic Agency                                 19
Background
    Section 2452, title 10, United States Code (10 U.S.C. 2452), “Duties of the Secretary
    of Defense,” requires the Secretary to develop and maintain the supply catalog and the
    standardization program to establish, publish, review, and revise, within the
    Department of Defense, military specifications, standards, and lists of qualified
    products as described in 10 U.S.C. 2451. The Federal Acquisition Regulation (FAR)
    subpart 9.2, “Qualifications Requirements,” implemented 10 U.S.C. 2319,
    “Encouragement of New Competitors,” and 41 U.S.C. 253c, “Encouragement of New
    Competition,” and prescribed policies and procedures regarding qualification
    requirements and acquisitions that were subject to such requirements. Sections 9.201
    and 9.203 of the FAR defined and described the Qualified Products List (QPL) and
    Qualified Manufacturers List (QML) Program.

    The QPL and QML Program aims to increase product quality, reliability, and buying
    productivity, and enhance logistics management operations by establishing a list of
    products that have met the qualification requirements stated in the applicable
    specification. The requirements will also include appropriate product identification and
    test or qualification reference with the name and plant address of the manufacturer and
    distributor as applicable for select commodities. Instead of source inspections and
    product verifications, quality levels are maintained through initial and periodic
    certification of the manufacturer by the Government, use of deficiency reporting
    information provided by the user, and product quality control procedures maintained by
    the manufacturer. The intended results are shorter lead times for acquisition and
    procurement, reduced test costs, and improved readiness through continuous availability
    of reliable products from viable suppliers. Policies and procedures for the Qualification
    Program (QPL and QML) are contained in Appendix B of “Defense Standardization
    Program (DSP) Policies and Procedures,” DoD Manual 4120.24-M, March 2000.
    Definitions of technical terms for the QPL and QML Program are in Appendix B, and
    some of its salient features are described as follows.

    Qualifying Potential Products, Processes, and Materials. Qualification is the process
    by which products, processes, or materials of manufacturers or distributors are
    independently examined and tested to determine whether they conform to specification
    requirements before they are acquired. Products and manufacturers that successfully
    pass the qualification process are then identified on a list of qualified products or
    qualified manufacturers. Criteria to retain qualification are applied periodically to
    ensure continued integrity of the qualification status.

    Maintaining the Product Quality. Once a product or manufacturer is added to a QPL
    and QML, the manufacturer, the user, and the Government are responsible for
    maintaining product quality. The manufacturer maintains adequate process and quality
    control procedures and conducts specified testing to ensure that items continually
    comply with all specification requirements. In addition, the manufacturer maintains
    trend analysis and reports of deficiencies disclosed during testing, and ensures that
    delivered items conform to all requirements. The user ensures that the qualified
    products delivered comply with the specification requirements by reporting any
    nonconformances to the qualifying activity (QA) and by submitting periodic summaries
    of quality control monitoring results that reveal adverse quality and reliability trends to
    the QA. The QA is responsible for the overall management of the QPL and QML
    Program and must verify the manufacturer’s compliance to the specified requirements.


                                             1
The QA is also required to take appropriate action on any reported nonconformance and
quality or reliability problems associated with QPL and QML products.

Qualified Products List. A QPL will normally be appropriate for products of supply,
which have a stable design and composition and will be continually available for
extended periods of time, thereby making it practicable to qualify individual products
without incurring prohibitive testing costs. A product that meets the established
qualification requirement will be listed on the QPL. The QPL contains in most cases
less complex products such as cables, resistors, or hoses.

Qualified Manufacturers List. A QML focuses on qualifying a manufacturer’s
materials and processes rather than products. A QML will normally be appropriate for
items of supply that are experiencing very rapid technological advances or have a
myriad of variations or custom designs that make individual product qualification
impractical or excessively expensive. A QML applies to processes or materials that
generally meet the following criteria:
       • they do not have recognized industry part numbers;

       • they are procured to a specification that covers a wide range of technologies,
         like hybrid microcircuits; and

       • they are a family of products with similar characteristics, like printed wiring
         boards.

Representative worst case test vehicles or representative samples that contain all
potential combinations of materials and processes used during production are carefully
examined in order to determine acceptability limits. As evidence that those processes
and materials meet the established qualification requirements, the envelope of
acceptance processes and materials will be listed on a QML. For example, for
microcircuits that require ceramic capability, when an order is placed, the manufacturer
will ensure that all certification, qualification, and documentation items are complete as
required by the Defense Supply Center (DSC) Columbus approved quality management
plan. The manufacturer will also submit to the qualifying activity a certificate of
compliance for the applicable standard microcircuit drawing. Upon completion of these
requirements, the product listing information will be transferred to the QPL as a
qualified product.

QPL Review and Certification. The qualifying activity must review specifications
that require qualification every 2 years to determine the need to continue the
qualification requirement. In addition, the qualifying activity is responsible for
reviewing and certifying on a periodic basis each listed manufacturer. Furthermore, the
qualifying activity shows whether more definitive product requirements, advances in
manufacturing techniques and quality control methods, or improvements in testing
apparatus and techniques have eliminated the need for qualification. The certification
process also determines whether the listed products are manufactured at the same plants
shown on the listing and whether they are being manufactured under the same
conditions as when first qualified. The process also determines whether the plants have
remained under the same management and manufacturing controls. To obtain
qualification approval of products, one of the following actions is required:
a. certification by the manufacturer (submittal of a DD 1718 form “Certification of
Qualified Products”); b. periodic submission of new test data, as may be required in the
specification; or c. complete requalification testing, as required in the specification or
by the QA.
                                          2
QML Review and Certification. The qualifying activity is responsible for reviewing
and recertifying on a periodic basis the continued need for each QML. In addition, the
qualifying activity must review specifications that require qualification every 2 years to
determine the need to continue the qualification requirement. QML includes reviewing
the manufacturer’s annual retention of qualification reports according to the
requirements of the applicable specification, performing periodic facility audits, and
reviewing design and construction or other changes made by the manufacturer to the
qualified products as delineated in the applicable military specifications. This review
process helps assure continued manufacturer compliance and up-to-date qualification
requirements (including associated quality conformance and reporting requirements).
The process also determines whether the plants have remained under the same
management and manufacturing controls.

QPL and QML Program at Defense Supply Center Columbus. The QPL Program
at DSC Columbus began in 1962 when qualifying activity responsibility for about 75
QPLs was transitioned from the Military Departments. From 1962 until 1989, the
number of QPLs assigned to DSC Columbus increased to about 164. After acquisition
reform, the number of QPLs and QMLs assigned to DSC Columbus nearly doubled,
due to the Secretary of Defense’s decision to have buying commands like DSC
Columbus assume more control over the products they actually procure for the
Services and Defense agencies. DSC Columbus currently has management
responsibility for approximately 300 QPLs and 4 QMLs. Over one million individual
part numbers are qualified and listed on the applicable DSC Columbus managed QPLs
and QMLs. DSC Columbus actively procures about 186,000 national stock numbers
(NSNs) from about 900 qualified manufacturers and distributors with sales of over
$126 million in FY 2000. These qualified NSNs include monolithic microcircuits,
hybrid microcircuits, aircraft hydraulic hoses, vacuum and de-icing system components,
resistors, capacitors, filters, circuit breakers, switches, connectors, relays, fiber optic
conductors and cables, semiconductors devices, antennas, waveguides, and electrical
boards.

DSC Columbus primary management of the QPLs and QMLs is the responsibility of
the Sourcing and Qualifications Unit, which is comprised of four teams that contribute
to the maintenance of its QPLs and QMLs. These are the Custom Devices Team,
Electronic Devices Team, Hybrid Devices Team, and Passive Devices Team. These
teams follow DoD Manual 4120.24-M to manage their QPL and QML Programs. The
teams are responsible for administering the qualification program, maintaining and
publishing QPL and QML listings, and ensuring the manufacturers’ compliance with
qualification requirements. In addition, the applicable specifications include the
detailed qualification and retention requirements to assure continuous product
performance, quality, and reliability. All specifications and corresponding QPLs and
QMLs are maintained in the DoD Acquisition Streamlining and Standardization
Information System (ASSIST).

The Plans and Policy Division serves as the focal point for receiving complaints in the
form of Product Quality Deficiency Reports (PQDRs), providing entry to the Customer
Depot Complaint System, and distributing the complaints to an appropriate quality
assurance specialist (QAS) for investigation, resolution, and response. Each QAS
provides quality assurance support to the product-buying units that are assigned the
management and procurement responsibilities for a group of NSNs, including QPLs.
Upon receiving a complaint, the QAS assesses the need for investigation, initiates the
necessary corrective actions for the reported defective items, and coordinates with other
elements and components within DSC Columbus as applicable.

                                         3
    DSC Columbus has in the past worked conscientiously to promote the use of the QPL
    and QML Program by the Services, and Federal and civilian agencies. The QPL and
    QML Program within DSC Columbus Operations Support Group is consistently applied
    across the various industry sectors. The Sourcing and Qualifications Unit consists of
    highly trained engineers and experienced technicians.

Objective
    Our objective was to evaluate the Defense Supply Centers’ Quality Assurance
    Programs. Specifically, we evaluated the effectiveness of the Defense Supply Center
    Columbus Qualified Products List and Qualified Manufacturers List Program. The
    evaluation also reviewed the management control program as it related to the evaluation
    objective. See Appendix A for the scope and methodology, management control
    program review, and a summary of prior coverage.




                                           4
          Effectiveness of Management of the Qualified
          Products List and Qualified Manufacturers
          List Program
          DSC Columbus did not have an effective Qualified Products List and Qualified
          Manufacturers List Program. It did not fully enforce the certification and
          retention policy for its qualified manufacturers. A total of 512 (42.8 percent) of
          the required 1,196 qualification product manufacturer facility and lines audits,
          scheduled during 1999-2000, were not accomplished. Its Sourcing and
          Qualifications Unit did not receive 1,739 Product Quality Deficiency Reports
          required to monitor the QPL and QML Program. DSC Columbus could not trace
          sources and authenticity of their products because DSC Columbus did not receive
          6,479 Certificates of Conformance and Traceability (COCTs) from dealers and
          distributors. As a result, manufacturers without the proper certification remained
          in the QPL and QML Program. Further, the Services, which rely on these
          programs, are subjected to a higher risk of receiving nonconforming parts.

Retention of Qualification Policy
     DoD has established policy and guidance in DoD Manual 4120.24-M for a
     manufacturer’s certification and retention of qualification. The process involves the
     qualifying activity’s certification of each manufacturer’s qualification status every
     2 years. To retain qualification approval of products, one of the following actions is
     required:

            • certification by the manufacturer,

            • periodic submission of new test data as may be required in the specification,
              or

            • complete requalification testing as may be required in the specification or by
              the qualifying activity.
                The Qualifying Activity shall determine, based on the extent of specification or
                product changes and other available data, whether products or manufacturers
                need to be removed from the QPL or QML until retested. If the Qualifying
                Activity determines that the product or manufacturer should remain on the
                QPL or QML, the Qualifying Activity shall establish a maximum time limit
                for submission of the samples or test data before removal. The Qualifying
                Activity shall require the reexamination of a qualified product when required
                by retention of qualification requirements in the specification.




Results of Retention of Qualification Process at DSC Columbus
     The Sourcing and Qualifications Unit at DSC Columbus stated that it conducts audits on
     a scheduled basis every 1-5 years depending on the specification requirements. Some
     specifications call for retention every year for such items procured by DSC Columbus
     for the National Aeronautical and Space Administration, which demands very stringent
                                                  5
     safety requirements. The process involves facility audits by DSC Columbus engineers
     in accordance with applicable specifications. At the conclusion of an audit, the
     manufacturer is required to take corrective action on any deficiencies found. After the
     Sourcing and Qualifications Unit accepts the corrective actions, the manufacturer is
     considered “certified,” and retains its qualification status on a QPL or QML. The Unit
     also receives retention reports, product failure notices, and product test data, which
     form a basis for continuing a manufacturer’s QPL or QML product qualification.

Results of Retention of Qualification Assessment
     We reviewed the certification status of the qualified manufacturers managed by four
     teams within the Sourcing and Qualifications Unit: Customs Devices Teams (VQC),
     Electronics Devices Team (VQE), Hybrid Devices Team (VQH) and Passive Devices
     Team (VQP). The teams were responsible for requalifying 1,196 manufacturing lines
     during the 1999-2000 2-year cycle. VQC was responsible for requalifying 450 of the
     manufacturing lines during its 2-year certification cycle, but conducted audits for only
     210 manufacturing lines during that period of time. As seen in Figure 1, the other
     branches had similar results. VQH, VQE, and VQP did not meet their requirements
     for the requalification of 178, 216, and 352 manufacturing lines respectively.


                                      500
                                      450                           Manufacturers line
                Manufacturers Lines




                                      400                           audits required every 2
                                      350                           years
                                      300                           Audit Capability every
                                      250                           2 years
                                      200
                                      150                           Manufacturers lines not
                                      100                           covered every 2 years
                                       50
                                        0
                                            VQC   VQH   VQP   VQE




            Figure 1. Sourcing and Qualifications Unit QPL/QML
            Audit Requirements Versus Capability


     The 1,196 manufacturing lines requiring certification in the 2-year cycle were
     composed of 684 for the QML Program and 512 for the QPL Program. Our review
     determined that 286 or 41.81 percent of the QML manufacturing lines were not
     audited. Similarly, 226 or 44.14 percent of the QPL manufacturing lines were not
     audited. In total 512 or 42.80 percent of manufacturing lines that needed certification
     were not audited. We also found that some of the manufacturing lines have gone
     8 years without certification.




                                                              6
DSC Columbus Sourcing and Qualifications Unit Personnel and
  Workload
    A review of the QA staffing demonstrated that a significant reduction in personnel had
    occurred since 1989. Moreover, during the same period, their QPL and QML
    workload had increased significantly. As seen in Figure 2, the number of positions
    associated with the program decreased from 90 in 1989 to 50 at the end of
    FY 2000. Conversely, the QPL and QML workload managed by the QA increased
    dramatically over the same period, from 164 QPL/QML in 1989 to around 300 at the
    end of FY 2000. Currently, the assigned resources have to administer the QPL and
    QML Program, accomplish a wide range of engineering certification tasks to maintain
    the QPL and QML Program, and respond to new qualification applications. The
    Sourcing and Qualifications Unit staff stated that the lack of staffing is the cause for
    outdated certifications.

                                      350




                                      300
      QPLs/QMLs Managed / Personnel




                                      250




                                      200
                                                                                                                QPL/QML
                                                                                                                PERSONNEL
                                      150




                                      100




                                      50




                                       0

                                            1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000
                                                                        YEARS




                                            Figure 2. QPL/QML Workload Versus Personnel



Quality Assurance Policy Regarding PQDRs
    DoD Manual 4120.24-M mandates that the buying activity provides feedback based on
    field information to the QA. Furthermore, DSC Columbus Integrated Policy
    Memorandum IPM-97-0048 establishes a QPL and QML Quality Assurance Policy
    which details the program’s use of PQDRs:

                                      Quality associates will immediately notify DSCC-VA [Document Standardization Unit]
                                      and VQ [Sourcing and Qualifications Unit] of all validated reports of component failures
                                      or other quality problems (Product Quality Deficiency Reports and validated defective test
                                      results) which may impact DSCC-V [Operations Support Group] administered QPL/QML
                                                                                7
          products. DSCC-VA and VQ shall alert the QAS on actions taken as a result of the initial
          report of component failure or report of other quality problems.

PQDR Role in the Quality Assurance Process
     The PQDRs are the primary source for the QPL and QML system feedback for DLA
     and the Services on quality. It is an important quality control measure inherent to the
     success of the QPL and QML Program. The quality assurance specialists in the Plans
     and Policy Division are required to review each PQDR to determine whether additional
     acceptance testing would be required on a product and take the appropriate corrective
     action with a manufacturer. Information regarding quality-related problems with
     qualified products is also important for maintaining the QPLs and QMLs. However, at
     DSC Columbus, problems existed with the ability of the Sourcing and Qualifications
     Unit to acquire such feedback because the policy for quality assurance specialists to
     provide PQDRs to the Sourcing and Qualifications Unit was not enforced. For
     example, in the year 2000, 1,739 QPL and QML related PQDRs were submitted to
     DSC Columbus but were not provided to the Sourcing and Qualifications Unit. As a
     result, QPL and QML management could not adequately monitor its product
     deficiencies and could not take corrective actions.

Qualification Program Policy Regarding Certificate of
  Conformance and Traceability
     The requirement for COCT is documented in several of the critical high reliability
     military specifications in order to ensure that an authentic QPL or QML part is received
     when ordered. The COCT requirement provides traceability from the original QPL or
     QML qualified manufacturer to the buying command, agency, or user of the part. The
     COCT documentation attempts to reduce the risk of unauthorized substitutes and fraud
     from dealers and distributors. Furthermore, it provides the QA with tools to determine
     if qualified parts were produced by a qualified manufacturer, thereby reducing the
     incidence of part substitutions and counterfeit material.

     DSC Columbus local policy E-25 covers the relationship between the qualification
     program and the use of COCT. The traceability clause in the E-25 policy is used as a
     tool for quality control in the QPL and QML Program. This policy is attached to each
     DSC Columbus contract and mandates that dealers submit three copies of certification
     to the Government Quality Assurance Representative (QAR) with the products offered
     for acceptance. After the QAR has accepted the products offered, acceptance and
     approval of the traceability certifications is indicated by signing two copies of the
     certification, also ensuring that the contract number is included on both copies. The
     contractor is mandated to provide these two copies to DSC Columbus. The third copy
     must be retained by the QAR.

Review of Certificate of Conformance and Traceability Status at
  DSC Columbus
     At DSC Columbus, two types of procurement inspection processes are used. These are
     designated as destination and source inspections. A Defense Contractor Management
     Agency QAR inspector provides inspection at the source to check the product for
                                                  8
    authenticity. Destination inspection does not involve the Government inspector but
    relies on the user to obtain a copy of the COCT. Currently, approximately 60 percent
    of the QPL items are designated for destination inspection. DSC Columbus Sourcing
    and Qualifications Unit did not receive copies of COCTs from dealers and distributors.
    For example, in the year 2000, 6,479 COCTs were required at DSC Columbus but the
    Sourcing and Qualifications Unit received none.

    Additionally, a recent audit conducted by the DSC Columbus internal review office
    investigated traceability problems in the QPL process. The audit team selected 625
    contracts from dealers and distributors and conducted a random selection of 100
    contracts. The audit found that only 6 out of 100 contracts contained COCT
    documentation. The audit showed that dealers were unable to provide the required
    COCT from the original manufacturers.

    Therefore, the Sourcing and Qualifications Unit was unable to determine the
    authenticity of the product and recommended not accepting products from dealers or
    distributors. As a result, the Sourcing and Qualifications Unit cannot take appropriate
    action against a noncompliant dealer or distributor.

Summary
    DSC Columbus did not have an effective QPL and QML Program because it did not
    fully enforce the certification and retention policy for its qualified manufacturers.
    The Sourcing and Qualifications Unit did not conduct the necessary number of line
    audits associated with its qualified manufacturers. As a result, 42.8 percent of the
    required 1,196 qualification product manufacturer facility and lines audits, scheduled
    during 1999-2000, were not accomplished. Further, the Sourcing and Qualifications
    Unit at DSC Columbus was not receiving PQDRs and COCTs because the policy was
    not enforced. Without reviewing PQDRs and COCTs, the Sourcing and Qualifications
    Unit could not effectively monitor product quality, authenticity, or source and could not
    take corrective actions against nonconforming QPL and QML contractors. As a result,
    some quality control aspects of the qualification program have become ineffective.
    Products from qualified manufacturers that have not been recertified during the required
    requalification cycle may be at a higher risk of not conforming to the required
    specifications. Customers receiving items procured from the QPL and QML Program
    may have a false sense of reliability or quality and may be subjected to an increased
    risk of receiving nonconforming parts.

Management Comments on the Finding and Evaluation Response
    The Defense Logistics Agency partially concurred with the finding, but did not concur
    with “DSC Columbus did not have an effective manufacturing and product qualification
    program.” They stated that they schedule and conduct facility audits within resource
    allocations and established priorities. They further stated that the effectiveness of the
    QPL and QML Program should be based on how well it facilitates the “procurement
    process by qualifying parts and/or manufacturers in advance of actual procurement or
    contracts, thereby avoiding delays . . .”.

    DLA suggested that we change “recertification” to “certification” since “certification is
    the terminology used in DoD 4120.24-M.” They also suggested that we change


                                            9
    “preparing activity” to “qualifying activity” since the qualifying activity is responsible
    for reviewing and certifying each QPL and QML manufacturer on a periodic basis.

    Evaluation Response. Shorter lead times are included in the QPL and QML Program
    objectives. Likewise, improved readiness through continuous availability of reliable
    products from viable suppliers is also an objective. Our evaluation focused on the
    compliance with QPL and QML requirements as part of the Defense Supply Center’s
    Quality Assurance Programs. Our finding and its causes are documented in the body of
    the report.

    We incorporated the suggested changes relative to using “certification” instead of
    “recertification” and “qualifying activity” instead of “preparing activity.”

Recommendations, Management Comments, and Evaluation
  Response
    We recommend that the Commander, Defense Supply Center Columbus, Defense
    Logistics Agency:

    1. Fully implement the procedures specified in DoD Manual 4120.24-M, “Defense
    Standardization Program (DSP) Policies and Procedures,” March 2000, for
    Qualified Products List and Qualified Manufacturers List Programs, to either
    certify the manufacturer within the required cycle or remove the manufacturer
    from the Qualified Products List and Qualified Manufacturers List Program.

    Management Comments. DLA partially concurred with the recommendation, stating
    that DSC Columbus “plans their product qualification audits within resource allocations
    based upon the prioritization criteria,” that they “have resource constraints that must be
    managed,” and that “engineering resources will be continually reviewed.” However,
    they also stated that DoD policy does not include a provision for them to “remove
    manufacturers from a QML/QPL solely because the QA did not perform a facility
    (plant) audit, nor ‘recertify’ the manufacturer within the required cycle.”

    Evaluation Response. Authority to remove manufacturers from the QML and QPL
    Program is contained in DoD Manual 4120.24-M, which states in part:
               The Qualifying Activity may remove a product, a manufacturer, or a process;
               decertify a manufacturer; or stop shipment, when such action is necessary to
               protect both the Government’s interest and the interest of the users of the QPL
               or the QML.

    The manual illustrates circumstances under which removal “might” be warranted.
    While the illustrated examples of circumstances do not specifically include the
    Government lack of compliance with the certification cycle, the intent to keep only
    currently qualified products or manufacturers on the list is illustrated by the example of
    removal when “the manufacturer has not complied with the retention of qualification
    requirements.”

    DLA acknowledged that “qualification audits are important tools to mitigate quality
    problems and assure continued product performance, quality and reliability.”
    However, with 42.80 percent of manufacturing lines that needed certification not being
    audited and with some manufacturing lines having gone 8 years without certification,
                                                10
removing the manufacturer from the QPL and QML Program until the certification is
accomplished meets the policy criteria of being necessary to protect both the
Government’s interest and the interest of the users of the QPL or the QML.

In response to the final report, we request that DLA reconsider their position of not
removing manufacturers from the Qualified Products List and Qualified Manufacturers
List until their qualification audits are current.

2. Provide Product Quality Deficiency Reports information to the Qualified
Products List managers at the Defense Supply Center Columbus, the Defense
Logistics Agency, and the Military Departments to update the Qualified Products
List.

Management Comments. DLA partially concurred with this recommendation, stating
that this finding was not a specific requirement of the QPL and QML Program. DLA
believes that the PQDR feedback to the QPL and QML manager adds value to the QPL
and QML Program. They also believe that the PQDR feedback will help the inventory
control point in obtaining remedial action by suppliers of defective parts sold to DLA.
The DSC Columbus Policy and Plans Division (DSCC-BDT) began sending a list of
opened and closed PQDRs on QPL and QML items with its associated NSNs grouped
by Federal Stock Classes to the QA in November 2001. The list was distributed to the
QA Team Chiefs responsible for the affected QPL and QML items. The QPL and
QML engineers will research the PQDRs to determine whether the affected QPL and
QML part has defects that would warrant actions against the QPL and QML
manufacturer or distributor. If warranted, the engineer will be able to take actions to
stop a company’s QPL and QML shipments of the affected product, issue problem
reports, and/or remove the company from the QPL and QML. The QPL and QML
engineers will also work with the QAS to help in obtaining remedial consideration for
defective parts or replace defective parts. The PQDR data is then input to the master
DSC Columbus QPL and QML database for future reference and determination of
whether a negative trend is developing with a particular supplier.

Evaluation Response. The use of deficiency reporting information provided by the
user is an essential element of maintaining quality levels with the QPL and QML
Program. The PQDRs are the primary source of user feedback on quality. Further,
DSC Columbus Integrated Policy Memorandum IPM-97-0048 details the programs use
of PQDRs. Our finding on PQDR feedback was also confirmed in a DSC Columbus
Internal Review audit report (DSCC-DI 19-01 report dated November 16, 2001). The
reported corrective actions underway meet the intent of our recommendation.

3. Provide Certificate of Conformance and Traceability information to the
Qualified Products List managers at the Defense Supply Center Columbus, the
Defense Logistics Agency, and the Military Departments to determine authenticity
of a product.

Management Comments. DLA partially concurred with this recommendation, stating
that this finding is not specific of the QPL and QML Program per se. The COCT is a
requirement in several military high-reliability specifications to help ensure that
authentic QPL and QML parts are received when ordered. DLA concurred that DSC
Columbus must receive COCTs whenever they are specified in a requirement document
(i.e., military specification), and invoked in the contract. The QA at DSC Columbus
was in the process of taking corrective action before the Office of the Inspector General
of the Department of Defense review.

                                       11
The following actions have already been implemented at DSC Columbus. A local
contract clause (E-25) has been revised to be sure the requirement to submit a COCT is
clear to the suppliers, and the buying directorates have established a point of contact to
track the receipt of the COCTs. The QAS at the buying directorates will review the
COCTs for adequacy and correctness. In addition, the E-25 clause was changed to
require the suppliers to provide a copy of the COCT to the QPL and QML managers.
This will allow the QPL and QML managers to spot check to make sure that COCTs
are received and that parts themselves have been qualified.

Evaluation Response. DLA concurred that DSC Columbus must receive COCTs
whenever they are specified in a requirement document, and invoked in the contract.
As stated in the finding, DSC Columbus could not trace sources and authenticity of
their products because they did not receive COCTs. User feedback including COCTs
will facilitate corrective actions. The actions implemented above meet the intent of our
recommendation.

4. Perform a review of resources required to accomplish the recertification and
provide adequate resources to accomplish the mission.

Management Comments. DLA concurred with this recommendation, stating that due
to resource constraints and DoD imposed resource limits, DSC Columbus had to adjust
their resources. Consequently, the DSC Columbus QA has to prioritize the periodic
product qualification audits and adjust audit frequencies. They proposed to review
engineering resources, review recruitment actions to fill critical engineering vacancies,
and increase automation to improve efficiency and effectiveness.

Evaluation Response. In response to the final report, we request that DLA provide
completion dates for the review of engineering resources required to accomplish the
certifications.

       .




                                        12
Appendix A. Evaluation Process

Scope and Methodology
    To accomplish the evaluation objective, we examined DSC Columbus management of the
    QPL and QML Program including qualification process, maintenance of specifications and
    lists of contractors, and its response to quality related problems associated with QPL and
    QML items.

    We reviewed the DSC Columbus organizational structure, QPL and QML related
    maintenance actions, and reported deficiencies against qualified products. We obtained
    and reviewed DSC Columbus’s 4 QMLs and 300 QPLs containing 186,000 NSNs and
    analyzed data from 3 deficiency reporting programs: PQDR, Product Verification
    Program, and Government Industry Data Exchange Program. We evaluated the QPL and
    QML Program’s retention of qualification requirements managed by DSC Columbus.
    Results of the evaluation provided insight into the effectiveness of the program and the
    adequacy of its quality control efforts.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in DoD. This evaluation provides coverage of the DoD
    Inventory Management high-risk area.

    Use of Computer-Processed Data. To achieve the evaluation objective, we used the
    DSC Columbus Internal Review Audit Office statement of the number of PQDRs received
    by DSC Columbus that were associated with QPL and QML NSNs. The statement was
    based on their analysis of both active and inactive databases. We did not establish the
    reliability of the computer databases and nothing came to our attention that caused us to
    doubt the reliability of their databases. However, establishing the reliability of the
    databases will not materially affect the results of our evaluation because the issue was not
    based upon the exactness of the number.

    Evaluation Dates and Standards. We performed this evaluation from March 2001
    through September 2001 according to standards implemented by the Inspector General of
    the Department of Defense.

    Contacts During the Evaluation. We visited or contacted individuals and organizations
    within DoD. Further details are available on request.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management control program related to the overall evaluation objectives and determined


                                             13
  that the pertinent management controls concerning the QPL and QML Program were
  inadequate (see the Finding).

  Adequacy of Management Controls. We identified material management control
  weaknesses at DSC Columbus as defined by DoD Instruction 5010.40. DSC Columbus
  controls over the QPL and QML Program were not adequate to insure compliance with
  regulations and management controls for the certification and retention of its qualified
  manufacturers. In addition, the Sourcing and Qualifications Unit could monitor neither
  PQDR nor COCT documentation because the appropriate mechanisms had not been
  instituted between those receiving PQDRs and COCTs and those maintaining the QPL and
  QML. If management implements all recommendations, the management control
  weaknesses will be corrected. A copy of the report will be provided to the senior official
  responsible for management controls within DSC Columbus.

  Adequacy of Management’s Self-Evaluation. DSC Columbus management did not
  identify management of the QPL and QML Program as an assessable unit and, therefore,
  did not identify or report the QPL and QML Program management control weaknesses
  identified by the evaluation.

Prior Coverage
  Inspector General of the Department of Defense (IG DoD)
  IG DoD Report No. D-2002-080, “Quality Deficiency Reporting Procedures for Naval
  Repair Parts,” April 5, 2002

  IG DoD Report No. D-2001-054, “Defense Logistics Agency Product Verification
  Program,” February 21, 2001

  IG DoD Report No. D-2001-002, “Defense Logistics Agency Customer Returns
  Improvement Initiative Program,” October 12, 2000

  IG DoD Report No. 98-063, “Defense Logistics Agency Product Quality Deficiency
  Program,” February 5, 1998




                                          14
Appendix B. Definitions of Technical Terms
   Certification of Conformance and Traceability. Certification is a written document
   described in a specification, signed by the company official for a product supplied,
   manufactured, and tested in full compliance with the specification requirements. The
   manufacturer’s certificate is sent with each shipment to a customer to ensure that complete
   product compliance and traceability from the original manufacturer is maintained through
   any intermediate sources such as a distributor or dealer to a customer.

   Distributor. Anyone authorized by the manufacturer to distribute the manufacturer’s
   product. This includes the distributor authorized by the manufacturer to rebrand and
   distribute the manufacturer’s rebrand product under the distributor’s own brand.

   Facility. One or more buildings or plant sites (usually co-located) used to design,
   manufacture and/or test components.

   Hybrids Manufacturing Line. DSC Columbus considers the substrate fabrication area to
   be one manufacturing line, the assembly area to be another line, and the test area to be a
   third line.

   Manufacturing Line. Primarily refers to a unique set of manufacturing processing steps
   necessary (usually described by the QPL or QML manufacturer as a manufacturing flow)
   to produce a given technology and/or product type.

   Microcircuits Manufacturing Lines. Manufacturing lines are segmented by the
   following functional areas: design, wafer fabrication, assembly, and test. There is
   typically a count of three or more lines per facility audit.

   Preparing Activity. The DoD activity responsible for the preparation, coordination,
   issuance, and maintenance of standardization documents.

   Qualification. A process in advance of, and independent of, an acquisition by which a
   manufacturer’s capabilities or a manufacturer’s or distributor’s products are examined,
   tested, and approved to be in conformance to the applicable specification requirements,
   and subsequent approval for a listing of products on a QPL, or manufacturers on a QML.

   Qualifying Activity. An activity that is either the preparing activity or the adopting
   activity of the specification or its designated agent, as specified in the specification or as
   directed by the national qualification agency.

   Qualified Manufacturers List. A list of manufacturer facilities that have been evaluated
   and determined to be acceptable based on the testing and approval of a sample specimen
   that conforms to the applicable specification. A Qualified Manufacturers List focuses on
   qualifying a manufacturer’s material and process rather than products.

   Qualified Products List. A list of products that have met the qualification requirements
   stated in the applicable specification. The entry for each listed item includes the
   appropriate product identification, the test or qualification reference, and the name and
   plant address of the manufacturer and distributor.

   Supplier. Final source of a product to a customer that may be identified as a distributor,
   manufacturer, or other entity.

                                              15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center, Columbus

Non-Defense Federal Organization
Office of Management and Budget




                                              16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Government Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                       17
18
Defense Logistics Agency Comments




                  19
               ___________________________________________________________________


Final Report
Reference




                                            20
___________________________________________________________________


                                                                      Final Report
                                                                        Reference




                             21
               ___________________________________________________________________


Final Report
Reference




Pg 10




                                            22
___________________________________________________________________


                                                                      Final Report
                                                                        Reference




                                                                      Pg 11




                             23
               ___________________________________________________________________


Final Report
Reference




Pg 11




                                            24
___________________________________________________________________


                                                                      Final Report
                                                                        Reference




                                                                      Pg 12




                             25
               ___________________________________________________________________


Final Report
Reference




                                            26
___________________________________________________________________


                                                                      Final Report
                                                                        Reference




                                                                      Pg i



                                                                      Pg ii

                                                                      Pg 2




                                                                      Pg 3




                                                                      Pg 3




                                                                      Pg 5




                             27
               ___________________________________________________________________


Final Report
Reference




Pg 5




Pg 6



Pg 6




Pg 7




                                            28
Evaluation Team Members
The Audit Followup and Technical Support Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense, prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense, who contributed to the report
are listed below.

David A. Brinkman
Kenneth H. Stavenjord
Jaime A. Bobbio
Chandra P. Sankhla
Wei K. Chang
